                                CLOSEOUT FOR M94110036



                                                     a program officer in the Division of-
                                                   r Biological Sciences informed OIG that she had
                                                the complainant and a faculty member a-t
University. Attached to this letterwas a copy of a September 1994 letter the complainant had
sent to D           r         . the Senior vick-president of heT  t(he-
Institution). The complainant was objecting     -  to  a  letter the     Institution hadsent to another
researcher who employed a technology that was the sub'ect of three successhl patents by the
Institution and one of its faculty members, D --         -
                                                                        and his two associates. The letter
contained an agreement the researcher was expected to sign. Among the items described in the
agreement were his limited publication rights and his responsibility, when using the technology, to
report his research progress to the Institution. The agreement specified that his discoveries made
with the aid of the technology became the property of the Institution. According to the
complainant the technology is commonly used in his research field and should not have been the
subject of the three patents. He decried the current efforts by institutions, to commercialize
researchers' inventions. He felt it was a negative influence on the academic enterprise. He stated
that his objectives were to promote public debate and to stimulate a study of the issues by the
National Academy of Sciences. The complainant's concerns describe the increasing                - tension

between the scientific community's custom of openly sharing data and results and the
confidentiality associated with the patent application process, as well as the increasing efforts by
institutions to commercialize their researchers' inventions.

          Attachments to the complainant's letter show that the Institution's letter to the other
  researcher caused an outcry within the field which then caused the Institution to take the unusual
  step of sending a letter to the editor of the field's leading journal. The letter was published. In
  that letter the Institution characterized the letter to the researcher as "ill-considered" and stated
' that there was a "research exemption under patent law, and academic researchers are free of the

  patent restriction that otherwise might apply to commercial organizations. There is absolutely no
  need for any academic researcher to obtain permission from, send information to, or obtain a
  license from the [Institution] in order to carry out academic research on any aspect of [the field]."

        OIG found that the faculty member at the Institution had not received NSF support, and
therefore NSF would not have jurisdiction in this case. This inquiry is closed and no hrther
action will be taken in this case.


cc:     Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 1 of 1
